<html>
<title> - OVERSIGHT OF THE CLERK, SERGEANT AT ARMS, CHIEF ADMINISTRATIVE OFFICER, AND INSPECTOR GENERAL OF THE HOUSE OF REPRESENTATIVES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
OVERSIGHT OF THE CLERK, SERGEANT AT ARMS, CHIEF ADMINISTRATIVE OFFICER, 
         AND INSPECTOR GENERAL OF THE HOUSE OF REPRESENTATIVES

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

           Held in Washington, DC, Wednesday, April 28, 2010

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
57-844                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California,             DANIEL E. LUNGREN, California,
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                      Jamie Fleet, Staff Director
               Victor Arnold-Bik, Minority Staff Director


OVERSIGHT OF THE CLERK, SERGEANT AT ARMS, CHIEF ADMINISTRATIVE OFFICER, 
         AND INSPECTOR GENERAL OF THE HOUSE OF REPRESENTATIVES

                              ----------                              


                       WEDNESDAY, APRIL 28, 2010

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:17 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
[chairman of the committee] presiding.
    Present: Representatives Brady, Lofgren, Capuano, Davis of 
California, Lungren, and Harper.
    Staff Present: Tom Hicks, Senior Election Counsel; Matt 
Pinkus, Professional Staff/Parliamentarian; Kyle Anderson, 
Press Director; Joe Wallace, Legislative Clerk; Greg Abbott, 
Professional Staff; Darrell O'Connor, Professional Staff; 
Shervan Sebastian, Staff Assistant; Victor Arnold-Bik, Minority 
Staff Director; Karin Moore, Minority Legislative Counsel; 
Salley Collins, Minority Press Secretary; Katie Ryan, Minority 
Professional Staff; and Mary Sue Englund, Minority Professional 
Staff.
    The Chairman. We now will convene the House Administration 
Committee oversight hearing with the officers of the House and 
the acting inspector general. They will have the opportunity 
give us an overview of current activities and plans for new 
initiatives.
    Each of them reports to and meets with members of the 
committee on a regular basis in their weekly staff meetings to 
keep us apprised of ongoing events which may require direct 
oversight involvement by this committee.
    The House has developed a strong professional staff for its 
internal management. And the institution, as it operates today, 
has the flexibility to respond to new challenges and to 
incorporate new technologies while retaining its historical 
identity and traditions.
    I would like to ask our ranking member, Mr. Lungren, if he 
has any statement before I introduce our panel.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    I think this is an important and appropriate hearing, and I 
thank you for holding it. We do have a responsibility to have 
these hearings to find out from the officers of the House about 
their operations and to raise questions that may have been 
raised by other Members with us and that we have raised, as 
well.
    One of the things that I think is important for us to do is 
to make public those things that we have done, all of us, in 
attempting to be good fiscal stewards. And I think it is 
important for us to say on the record those things that we have 
done in our various capacities and the various officers of the 
House in terms of ensuring that we have been trying to operate 
budgets in as prudent a way as possible. We owe it to 
ourselves, we owe it to our constituents to do that.
    I have been concerned about some of the comments I have 
received from some other Members about some of the services 
that they have received. One of the things that I have been 
concerned about is the level of staff training that is going 
on, the way financial counselors have been assigned. And one of 
the things that concerns me is how we moved some of our 
training away from here in the Capitol complex to the--I call 
the Ford Building the outreaches of the Capitol complex, making 
it considerably difficult for us to attract staff people over 
there because of the difficulty that they have in coordinating 
that with the work that they have.
    We all know that our staff oftentimes need to respond to 
particular requests, immediate requests that they receive from 
Members of Congress. And it is very helpful to have them as 
close as possible in those circumstances. And I have been 
informed that, in May alone, staffers interested in attending 
11 of the 36 courses offered will have to go over to the Ford 
Building and have it there, when, in the past, we have had 
those particular courses offered right here.
    And among those classes that are sent over there is one 
that I think is extremely important to Members of Congress, and 
that is instructing our staff on how to manage the MRA. There 
is nothing that can get a Member in more trouble than 
mismanaging the MRA. And there are some very specific nuances 
that, frankly, are not caught anywhere else except here in the 
House of Representatives. The new employee orientation, staff 
assistant 101 and intern 101, those are essential programs.
    One of the things I would bring up--and I wonder if there 
is any attention to this with respect to the interns--is, I 
have at least heard anecdotally that we have had an increase in 
the number of--well, I don't know if I would call it an 
increase. There have been a number of instances in which staff-
led tours have become only staff-led tours to the film that is 
available over at the CVC. And then some people have come out 
with groups as large as 50 and found out whoever the staff 
person was that brought them over there is no longer there, and 
then we have our folks that I affectionately call the ``red 
coats'' trying to pick up the slack.
    And I just wonder in the program that we have, in terms of 
intern orientation, whether or not we are--or whatever it is, 
staff orientation--whether or not we are making it clear that 
when we in this committee decided that we wanted to ensure that 
staff-led tours continued, we meant staff-led tours, not staff 
leading them over to the film and then leaving them and then 
causing difficulty not only with the red coats having to then 
try and pick it up, but, as I understand, then, the flow that 
we have created for those tours is interrupted.
    And this has just come to my attention. So I think it is 
one thing that we need to do.
    I would like to specifically commend the efforts of the 
Office of the Inspector General. I think that that office has 
been very diligent in assisting us in attempting to eradicate 
what we call waste, fraud, and abuse. Their audit, advisory, 
and investigative services have helped to ensure the efficiency 
and effectiveness of the House.
    The Clerk of the House, that office is charged with 
carrying out a lot of things that are important to Members. And 
I look forward to hearing your testimony.
    Mr. Livingood, thank you for being here. I understand you 
had to do some travel to make sure you got back here in time. 
We appreciate that.
    And, Mr. Beard, we appreciate your attendance here, as 
well. And I look forward to hearing from all of our officers at 
this hearing.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Anybody else want to make a statement?
    I noticed our dear friend, our technical director, Sterling 
Spriggs, is here. I understand that we were going to be sent a 
note, but I would rather put you on the record. I am on Armed 
Services with about 72 Members, and there are 72 monitors. We 
authorized that. Can we authorize maybe, like, nine more 
monitors here?
    I feel embarrassed that I am the only one that can see what 
is going on. And I learned a long time ago that knowledge can 
be a horrible thing. I would like all my colleagues to know 
what is going on on the House floor. So it can't be that much 
more expensive to get about eight more monitors for us.
    Mr. Spriggs. Consider it done.
    The Chairman. Thank you. Thank you so much.
    I would like now to introduce to everyone our panel here.
    The Clerk of the House, Lorraine Miller, who was elected to 
that position in 2007. Madam Clerk, I know that this week marks 
a significant milestone in your efforts to increase access and 
transparency to our House proceedings by introducing HouseLive, 
an interactive tool providing live stream of the House floor. I 
look forward to hearing your testimony on this and other 
initiatives to better increase service to Members, staff, and 
the general public.
    Wilson--I didn't ever know that--Bill Livingood is a 
neighbor of mine, grew up right near where I grew up in 
Philadelphia, and then left on to much better things, unlike 
me. But anyway, Wilson Livingood, Bill Livingood has served as 
the Sergeant at Arms for the House since 1995.
    Let me take the time to say that your office did a great 
job in maintaining security for the House and its Members by 
providing access to visitors seeking to lobby and communicate 
during recent events which generated strong public interest in 
our legislative activities. And I am eager to hear about 
continued security improvements.
    We will then hear the testimony from Chief Administrative 
Officer Dan Beard, who has served in that post since 2007. As 
the House moves forward to provide greater transparency to the 
public, the Office of the CAO has taken a significant recent 
step by providing the statement of disbursements, SOD, online. 
And I look forward to hearing about this and other methods to 
provide greater efficiency within the House.
    Last but not least, Terry Grafenstine is our acting 
inspector general for the House. We appreciate the seamless 
continuity that you have provided since Inspector General 
Cornell's retirement in 2009. Your office overview and 
evaluation provides greater efficiency and management of our 
House operations. And I look forward to your testimony.
    And now I would like to ask the Honorable Lorraine C. 
Miller if you would please pull that microphone, push that 
button, and you are on.

STATEMENTS OF THE HON. LORRAINE C. MILLER, CLERK, U.S. HOUSE OF 
 REPRESENTATIVES; THE HON. WILSON LIVINGOOD, SERGEANT AT ARMS, 
U.S. HOUSE OF REPRESENTATIVES; THE HON. DANIEL P. BEARD, CHIEF 
ADMINISTRATIVE OFFICER, U.S. HOUSE OF REPRESENTATIVES; THERESA 
     GRAFENSTINE, ACTING INSPECTOR GENERAL, U.S. HOUSE OF 
                        REPRESENTATIVES

            STATEMENT OF THE HON. LORRAINE C. MILLER

    Ms. Miller. Thank you, Chairman Brady and Ranking Member 
Lungren and the members of the committee. Good morning. It is 
absolutely my pleasure to be with you this morning to give you 
a snapshot of the operations of the Office of the Clerk.
    Let me begin by--as you know, our organization supports the 
legislative activities of the House. And so I wanted to give 
you kind of a brief overview of how you guys have been 
operating. It is kind of illustrative of what we are doing.
    In the first session of the 111th Congress, you held 2,190 
hearings. In the second session, as of Friday, April 16, the 
House held 648 hearings.
    Roll call votes: In the first session of the 111th, we held 
991 roll call votes. In the second session of the 111th, as of 
last evening, we held 226 votes.
    For bills and resolutions introduced in the House: We have 
introduced 6,805 bills and resolutions. We have passed, in the 
111th, 1,235 bills. We have enacted into law, public laws--in 
the 111th, 160 bills have been enacted into law.
    So you can see from that we have been pretty active as a 
legislative body.
    For funding year 2011, our budget request to the 
Appropriations Committee is $29,299,000. On the personnel side 
of that, we are requesting $23,284,000, which includes two new 
FTEs for software development, which will bring our total FTEs 
for the Office of the Clerk to 263. On the non-personnel side, 
our request is for $6,015,000. That will take care of our 
operational--our licenses that we have to pay for, all of the 
equipment that we use.
    I want to kind of highlight some of the accomplishments 
that we feel that we have done over the last 3 years.
    We have hired a new deputy clerk for our page program, 
Maria Lopez, who is here in the audience.
    Maria, raise your hand.
    Maria has the oversight of our page program.
    As the chairman mentioned, on Monday of this week we went 
live with our HouseLive, as I like to call it, which is a beta 
Web streaming service that will offer online realtime video of 
the House of Representatives sessions.
    Last year, you will remember we installed new LED 
technology on the summary board in the Chamber. We expect to 
complete that project upon adjournment of the House this year. 
And we will continue to work with the committee on the timing 
and the installation of that new LED technology on the main 
display boards.
    The Office of the Clerk launched a new oral history Web 
site in December of last year. Our Web site includes interviews 
with our former clerk, Don Anderson; the first African American 
page; Irving Swanson, who was the reading clerk who took the 
roll call votes to declare war on Japan, Germany, and Italy in 
1941. We will upgrade those and more oral histories will be 
displayed on our Web site.
    We also coordinated the hosting of the World e-Parliament 
Conference in November of last year. Approximately 25 secretary 
generals of parliaments around the world convened here at the 
House of Representatives to learn more about technology and the 
innovations occurring. Many of the members on this committee 
participated in that.
    I also wanted to bring to the committee's attention some of 
our operational activities that you might find of interest.
    Lobbying disclosure: As a result of the Honest Leadership 
and Open Government Act, the Office of the Clerk implemented a 
new lobbying disclosure system that now has approximately 5,000 
lobbying registrant entries, representing some 20,000 clients 
currently registered with the Office of the Clerk. Furthermore, 
there are approximately 15,000 individual lobbyists now 
registered in the Clerk's new lobbying contribution system.
    The new law requires that each lobbying registrant, as well 
as each individual lobbyist, file a quarterly report with the 
Office of the Clerk disclosing certain contributions. In the 
second half of 2009, we received over 50,000 electronically 
filed forms.
    We have been very vigilant about the records of the House. 
In 2009, our archival staff processed 3,150,400 official 
records of the House of Representatives. In addition, the first 
large-scale transfer of electronic records was completed last 
year when a committee transferred all of its records--all of 
its records--of the 110th Congress, which was about 19.7 
gigabytes, electronically.
    Our legislative computer services: We will purchase 
additional hardware and software to meet the increased demands 
on the Clerk's server form. More people than ever rely on the 
Clerk's Web site for legislative information and updates. Our 
Web site currently averages about 300,000 to 500,000 hits per 
week, depending on the legislative schedule. And with this 
increased traffic and expanded information, new services that 
will be available on the Clerk's site, we must ensure that our 
hardware and software are sufficient to meet these needs.
    We are working on trying to upgrade the House Library. We 
are working with the Architect of the Capitol to find a 
suitable space. We have records in three different locations--
here, in the Cannon, in the Madison Building--and we are trying 
to combine that. And we are trying to do something that is 
digital. Not that we need large stacks, but we need an area 
where we can--one-stop shopping for anything you want to know 
about the House of Representatives.
    We are engaging in one new project with the Document Room, 
and that includes the shelving of it. During the fiscal year 
2011, the first phase of the project is planned to purchase and 
install a high-density mobile shelving system in the House 
Documents Room. This will increase our storage for our House 
Documents Room and hopefully for the Library. We anticipate 
that this will remove all of the antiquated and cumbersome 
metal boxes that we have been using in the Documents Room for--
it seems like centuries, but years.
    At this point, we are--we have a lot of projects that we 
have ongoing. And I think, at this point, I would like to stop 
there and welcome any questions that the committee may have. 
Thank you.
    [The statement of Ms. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T7844A.001
    
    [GRAPHIC] [TIFF OMITTED] T7844A.002
    
    [GRAPHIC] [TIFF OMITTED] T7844A.003
    
    [GRAPHIC] [TIFF OMITTED] T7844A.004
    
    [GRAPHIC] [TIFF OMITTED] T7844A.005
    
    [GRAPHIC] [TIFF OMITTED] T7844A.006
    
    [GRAPHIC] [TIFF OMITTED] T7844A.007
    
    [GRAPHIC] [TIFF OMITTED] T7844A.008
    
    [GRAPHIC] [TIFF OMITTED] T7844A.009
    
    [GRAPHIC] [TIFF OMITTED] T7844A.010
    
    [GRAPHIC] [TIFF OMITTED] T7844A.011
    
    [GRAPHIC] [TIFF OMITTED] T7844A.012
    
    [GRAPHIC] [TIFF OMITTED] T7844A.013
    
    [GRAPHIC] [TIFF OMITTED] T7844A.014
    
    [GRAPHIC] [TIFF OMITTED] T7844A.015
    
    [GRAPHIC] [TIFF OMITTED] T7844A.016
    
    [GRAPHIC] [TIFF OMITTED] T7844A.017
    
    [GRAPHIC] [TIFF OMITTED] T7844A.018
    
    [GRAPHIC] [TIFF OMITTED] T7844A.019
    
    [GRAPHIC] [TIFF OMITTED] T7844A.020
    
    [GRAPHIC] [TIFF OMITTED] T7844A.021
    
    [GRAPHIC] [TIFF OMITTED] T7844A.022
    
    [GRAPHIC] [TIFF OMITTED] T7844A.023
    
    [GRAPHIC] [TIFF OMITTED] T7844A.024
    
    [GRAPHIC] [TIFF OMITTED] T7844A.025
    
    [GRAPHIC] [TIFF OMITTED] T7844A.026
    
    [GRAPHIC] [TIFF OMITTED] T7844A.027
    
    [GRAPHIC] [TIFF OMITTED] T7844A.028
    
    [GRAPHIC] [TIFF OMITTED] T7844A.029
    
    [GRAPHIC] [TIFF OMITTED] T7844A.030
    
    [GRAPHIC] [TIFF OMITTED] T7844A.031
    
    [GRAPHIC] [TIFF OMITTED] T7844A.032
    
    [GRAPHIC] [TIFF OMITTED] T7844A.033
    
    [GRAPHIC] [TIFF OMITTED] T7844A.034
    
    [GRAPHIC] [TIFF OMITTED] T7844A.035
    
    [GRAPHIC] [TIFF OMITTED] T7844A.036
    
    [GRAPHIC] [TIFF OMITTED] T7844A.037
    
    [GRAPHIC] [TIFF OMITTED] T7844A.038
    
    [GRAPHIC] [TIFF OMITTED] T7844A.039
    
    [GRAPHIC] [TIFF OMITTED] T7844A.040
    
    [GRAPHIC] [TIFF OMITTED] T7844A.041
    
    [GRAPHIC] [TIFF OMITTED] T7844A.042
    
    [GRAPHIC] [TIFF OMITTED] T7844A.043
    
    [GRAPHIC] [TIFF OMITTED] T7844A.044
    
    [GRAPHIC] [TIFF OMITTED] T7844A.045
    
    [GRAPHIC] [TIFF OMITTED] T7844A.046
    
    [GRAPHIC] [TIFF OMITTED] T7844A.047
    
    [GRAPHIC] [TIFF OMITTED] T7844A.048
    
    [GRAPHIC] [TIFF OMITTED] T7844A.049
    
    [GRAPHIC] [TIFF OMITTED] T7844A.050
    
    [GRAPHIC] [TIFF OMITTED] T7844A.051
    
    [GRAPHIC] [TIFF OMITTED] T7844A.052
    
    The Chairman. Thank you.
    Wilson Livingood. You know you are going to hear that all 
the time from me.

             STATEMENT OF THE HON. WILSON LIVINGOOD

    Mr. Livingood. I have to stop and see who that is.
    Good morning, Mr. Chairman, Mr. Lungren, and members of 
this committee. It is an honor to speak to you this morning.
    And, before I begin, I would like to express my sincere 
gratitude to each member of this committee for their support 
for our office and to the Capitol Police. You enable us to 
provide a safer and more secure environment for Members, their 
staff, visiting diplomats, world leaders, and the many 
thousands of visitors who come here each year. And no one 
entity can do that alone, and I appreciate that support. It 
makes a difference for all of us.
    As an overview, the Sergeant at Arms consists of the 
following divisions: administrative and immediate office; 
police services and special events; Chamber security; 
information services; House garages and parking security; the 
new House Security Office; and the newly created Office of 
Emergency Management.
    We administer the distribution of the Members' pins, spouse 
pins, Member congressional plates, the staff identification 
badges. Then we oversee security on the House floor and 
galleries, and administrate all ticketed events taking place in 
the House Chamber. Additionally, we oversee security in the 
House garages and administer the distribution of parking 
permits at the beginning of each new Congress.
    Working in conjunction with the United States Capitol 
Police, my office coordinates logistics for all major events 
involving Members of Congress. As the chief law enforcement 
officer of the House of Representatives, I am tasked to review 
and implement all issues relating to the safety and security of 
Members of Congress and all the visitors, staff that come to 
the Capitol complex, including the Capitol complex itself. Most 
of our efforts are focused in this direction.
    This morning, I would like to provide you with a summary of 
some of the efforts that the Office of the Sergeant at Arms is 
currently working on.
    In the administrative and immediate office, our staff has 
begun work for the preparation for the 112th Congress, to 
include designing and producing the Member and spouse 
identification pins for distribution in January of 2011.
    In addition, we are developing a more robust outreach 
program for gathering Member emergency contact information. We 
collect this vital information at the beginning of each new 
Congress so we can reach out and advise Members in an emergency 
situation. And we deeply appreciate each Member's timely 
response to our request.
    Our appointments desk: In cooperation and coordination with 
the Senate appointments desk and the Capitol Police, we have 
implemented a new official business visitor badge for the 
Capitol. Standardization of these badges with the Senate and 
the Capitol Police provides the Capitol Police with a much more 
visible way to verify and enforce official business visitor 
policies with one type of badge instead of two or three 
different types.
    Chamber security: We are currently preparing for the 
upcoming joint meeting with the President of Mexico on May 
20th. In addition, we continue to review emergency evacuation 
plans and procedures from the House floor and galleries, and we 
will shortly be having an evacuation drill.
    Since the opening of the Capitol Visitor Center, the CVC, 
we have been able to accommodate an increasing number of 
visitors going to the House Gallery. The CVC has accommodated 
over 3 million visitors since its opening in December of 2008. 
In the same span of time, we have accommodated nearly 500,000 
visitors into the House Gallery. The opening of the CVC has 
allowed our Gallery visitors to be staged in a comfortable, 
climate-controlled, and secure environment. The process of 
staging the House Gallery line, instead of outside, where it is 
now--it is in the CVC--has allowed us to maintain a higher 
level of security in and around the House Chamber.
    Our House garages and parking security: The office is 
currently coordinating with the Architect of the Capitol in 
their upcoming renovation of the East Underground Garage. 
Additionally, we are in the process of reviewing and evaluating 
the design of the 112th Congress parking permit. As always, we 
look to enhance the security features on these decals and will 
work closely with the committee in the upcoming months.
    Our House Security Office: The Office of House Security is 
currently implementing a classified document management system 
to securely manage, track, and store all classified materials 
maintained by this office.
    Additionally, we have commenced an introductory operational 
security--that is called OPSEC, operational security--briefing 
for all House staff, which is designed to educate staff on 
protecting sensitive material and sensitive information. This 
introductory briefing is our initial approach to bolster OPSEC 
awareness throughout the House of Representatives.
    The Office of Information Services: We are continuing with 
the installation and configuration of a new ID badge production 
system. This will be a more secure system and will enable ID 
Services staff to more effectively process and issue 
identification badges to House staff and contractors.
    Information Technology has also begun the initial work on a 
complete redesign of the House Sergeant at Arms Web site. 
Changes will include incorporating a content management system 
to better manage the data on the site, integrating the former 
OEPPO Web site into the Sergeant at Arms Web site, and 
providing additional online forms for common requests made by 
the House for Sergeant at Arms services.
    Our police services and special events: Over the past 
several months, the number of reported threats against Members 
has increased, but overall for the past year we are running 
just about where we did last year. I continue to monitor this 
on a daily basis and consult and coordinate with the United 
States Capitol Police on all of these issues to ensure the 
safety and security of all Members.
    Preparations are being made for the 29th Annual National 
Peace Officers Memorial Service, to be held on the west front 
of the Capitol at noon on May 15th. This solemn service honors 
the 116 law enforcement officers who died in the line of duty 
in 2009.
    We are preparing to receive, as I said earlier, the 
President of Mexico in a joint meeting of Congress on May 20th 
at 11:00 a.m.
    Initial meetings have been held for the annual Memorial Day 
and July 4th concerts, which are held on the west front of the 
Capitol. Both of these events are large-scale and well-
attended.
    Our Office of Emergency Management: On February 1st, 2010, 
at the direction of this committee, the former Office of 
Emergency Planning, Preparedness, and Operations was 
reorganized within the Sergeant at Arms Office and renamed the 
Office of Emergency Management. This transition is expected to 
help clarify roles and responsibilities for emergency 
management. Specifically, this transition clarified the 
Sergeant at Arms' responsibilities regarding coordination of 
life safety and continuity of government programs within the 
House after coordination with the other officers.
    I have been charged to make sure that procedures are in 
place and personnel trained for emergencies that may require 
Members, staff, and visitors to evacuate, shelter, relocate, or 
take other action based on scenarios ranging from accidents to 
natural disasters to criminal or terrorist events. I have 
assigned OEM the duty to ensure that effective plans are in 
place, coordinated, and appropriate information is provided and 
communicated to Members, staff, officers, visitors, leadership, 
to all.
    Similarly, I have been requested to coordinate House 
planning to ensure that the essential government functions, 
given any contingency, are coordinated with the other House 
officers, as well as my office. In addition, I ensure that the 
House Sergeant at Arms Office functions are able to continue in 
an emergency. I have directed OEM to actively implement 
strategies to coordinate the House continuity program, 
including the effective integration of leadership, committees, 
Members, House officers, and all other House offices continuity 
planning and preparedness efforts. I have directed OEM to 
ensure the House program is coordinated with the rest of the 
legislative branch and the executive branch continuity 
community.
    OEM has been fully engaged in implementing the House 
Sergeant at Arms' continuity program responsibilities; is 
beginning to re-implement a comprehensive, coordinated House 
continuity program; and is engaged with the Senate and other 
legislative branches, executive and judicial branch elements, 
House organizations, and even local jurisdictional authorities 
through a variety of life safety and planning processes.
    In closing, Mr. Chairman, Mr. Lungren, and members of the 
committee, thank you for the opportunity to appear before this 
committee. Let me assure you of my longstanding commitment to 
provide the highest-quality support services for the House of 
Representatives in the safest and most secure environment 
possible.
    It has always been my goal and that of the House Sergeant 
at Arms to remain vigilant and security-conscious at all times. 
I will continue to keep the committee informed of all my 
activities.
    I will be happy to answer any questions you may have at a 
later time here.
    [The statement of Mr. Livingood follows:]

    [GRAPHIC] [TIFF OMITTED] T7844A.053
    
    [GRAPHIC] [TIFF OMITTED] T7844A.054
    
    [GRAPHIC] [TIFF OMITTED] T7844A.055
    
    [GRAPHIC] [TIFF OMITTED] T7844A.056
    
    [GRAPHIC] [TIFF OMITTED] T7844A.057
    
    [GRAPHIC] [TIFF OMITTED] T7844A.058
    
    [GRAPHIC] [TIFF OMITTED] T7844A.059
    
    [GRAPHIC] [TIFF OMITTED] T7844A.060
    
    [GRAPHIC] [TIFF OMITTED] T7844A.061
    
    [GRAPHIC] [TIFF OMITTED] T7844A.062
    
    [GRAPHIC] [TIFF OMITTED] T7844A.063
    
    [GRAPHIC] [TIFF OMITTED] T7844A.064
    
    [GRAPHIC] [TIFF OMITTED] T7844A.065
    
    [GRAPHIC] [TIFF OMITTED] T7844A.066
    
    [GRAPHIC] [TIFF OMITTED] T7844A.067
    
    [GRAPHIC] [TIFF OMITTED] T7844A.068
    
    [GRAPHIC] [TIFF OMITTED] T7844A.069
    
    [GRAPHIC] [TIFF OMITTED] T7844A.070
    
    [GRAPHIC] [TIFF OMITTED] T7844A.071
    
    [GRAPHIC] [TIFF OMITTED] T7844A.072
    
    [GRAPHIC] [TIFF OMITTED] T7844A.073
    
    [GRAPHIC] [TIFF OMITTED] T7844A.074
    
    [GRAPHIC] [TIFF OMITTED] T7844A.075
    
    [GRAPHIC] [TIFF OMITTED] T7844A.076
    
    [GRAPHIC] [TIFF OMITTED] T7844A.077
    
    [GRAPHIC] [TIFF OMITTED] T7844A.078
    
    [GRAPHIC] [TIFF OMITTED] T7844A.079
    
    [GRAPHIC] [TIFF OMITTED] T7844A.080
    
    [GRAPHIC] [TIFF OMITTED] T7844A.081
    
    [GRAPHIC] [TIFF OMITTED] T7844A.082
    
    [GRAPHIC] [TIFF OMITTED] T7844A.083
    
    [GRAPHIC] [TIFF OMITTED] T7844A.084
    
    [GRAPHIC] [TIFF OMITTED] T7844A.085
    
    [GRAPHIC] [TIFF OMITTED] T7844A.086
    
    [GRAPHIC] [TIFF OMITTED] T7844A.087
    
    [GRAPHIC] [TIFF OMITTED] T7844A.088
    
    [GRAPHIC] [TIFF OMITTED] T7844A.089
    
    [GRAPHIC] [TIFF OMITTED] T7844A.090
    
    [GRAPHIC] [TIFF OMITTED] T7844A.091
    
    [GRAPHIC] [TIFF OMITTED] T7844A.092
    
    [GRAPHIC] [TIFF OMITTED] T7844A.093
    
    [GRAPHIC] [TIFF OMITTED] T7844A.094
    
    The Chairman. Thank you. I thank the gentleman.
    The Honorable Daniel Beard.

               STATEMENT OF THE HON. DANIEL BEARD

    Mr. Beard. Thank you, Mr. Chairman.
    I would like to submit my testimony for the record and make 
some observations about the past year for the Office of the 
Chief Administrative Officer.
    The Chairman. Without objection.
    Mr. Beard. I am very proud of the work performed by the 675 
individuals who work in the office. They work for everyone and, 
in a sense, are kind of service agnostic. They work long hours, 
provide incredible service, and they are very proud of the role 
that they play in the legislative process.
    Over the last year--the Clerk mentioned a snapshot of her 
activities. Well, I would like to highlight four areas where I 
think that we have had some challenges and some successes in 
our activities.
    The first is in the area of employee benefits. We, as an 
institution, are better off if we have an employee base who has 
been here for a long time and there isn't a high turnover rate. 
We can't compete with the private sector in the area of salary, 
but we certainly can provide a good benefit package to our 
employees.
    So I have been very pleased to work with the committee to 
raise the student loan repayment level over the past year and 
to work to establish a tuition and professional fees 
reimbursement program, as well as the Child Care Affordability 
Program.
    I would also like to point out that we have initiated this 
year the Wounded Warrior Program, which provides a program to 
provide assistance to Members. We have placed 31 wounded 
warriors, veterans of the Iraq and Afghanistan wars, in Member 
offices. One works in my office. And we have 15 working in 
Republican offices and 15 in Democratic offices, so I would 
call that a very bipartisan program.
    The second area that we have invested considerable time and 
energy in is in greening the Capitol. The Speaker gave us a 
challenge to reduce our energy consumption by 50 percent over 
10 years and to try to eliminate our carbon footprint. We have 
worked to do that by purchasing wind energy for all of the 
electricity. All the electricity comes from wind energy 
projects. We have switched from coal to natural gas in our 
power plant. We have consolidated servers. We have renovated 
data centers. And we have, as Mr. Lungren mentioned, moved to 
compostable food service waste, as well as banning Styrofoam 
and plastic in our food service operation.
    But I think equally important, over the last year, we have 
invested a considerable amount of time and energy and effort to 
the My Green Office program, where we have reached out to 272 
offices here in Washington and 177 district offices to 
encourage them to adopt 15 actions which ultimately will help 
save energy and save operating costs.
    A third area where we have had significant challenges in 
the last year is in the area of IT security. Most people don't 
realize that the House handles approximately 1.1 million e-
mails a day. And we have hundreds of thousands of attempts on a 
monthly basis to get into our systems. And it is a challenge to 
work to defend and keep that system vibrant and reliable.
    I want to especially thank the Speaker and the Republican 
leader. The chair and Mr. Lungren have been very supportive of 
efforts over the past year. We have upgraded hardware and 
software, encrypted information, and better protected sensitive 
House information. We are scanning equipment before and after 
Members go overseas and improved security training for House 
employees. These changes benefit every Member because our 
system is only as secure as our weakest link.
    Finally, the fourth area I wanted to highlight is the 
improved accessibility for Members and staff to new technology. 
I can't think of a more difficult and challenging activity than 
keeping up with the ever-changing technology, electronic 
technology, IT technology that is coming out. It is simply--it 
is like a race where we are running on an treadmill, trying to 
stay ahead of the technological developments. It is a constant 
challenge for us.
    Seven years ago, we didn't have any of these BlackBerrys, 
and yet today we have 9,000. We not only have to make them 
secure, but we have to be able to assist Members and support 
them. Last year, iPhones weren't used in a business setting, 
and yet over the past year we have explored with a number of 
different businesses ways to make iPhones secure. And we will 
be able to help Members use iPhones, enable Members to use 
iPhones, going forward.
    We have also improved the access of technology and the 
accessibility of technology to Members and to district offices. 
I think it is important to remember that we serve district 
offices from Pango Pango and Guam all the way to, you know, 
Anchorage and Honolulu and Bangor, Maine, and Florida and 
everywhere else. So we have 900 district offices, and we have 
worked hard to link those into our IT systems so that they have 
the capability to be able to participate in an effective way.
    I think today that we are better wired, better equipped, 
better protected, and better served in the technology area. But 
it is a race, and it is one that will be ongoing and will be 
very difficult for us to keep up with over the next few years.
    So those are some of the highlights of the past year. I 
would be more than happy to answer questions as we go forward. 
Thank you.
    [The statement of Mr. Beard follows:]

    [GRAPHIC] [TIFF OMITTED] T7844A.095
    
    [GRAPHIC] [TIFF OMITTED] T7844A.096
    
    [GRAPHIC] [TIFF OMITTED] T7844A.097
    
    [GRAPHIC] [TIFF OMITTED] T7844A.098
    
    [GRAPHIC] [TIFF OMITTED] T7844A.099
    
    [GRAPHIC] [TIFF OMITTED] T7844A.100
    
    [GRAPHIC] [TIFF OMITTED] T7844A.101
    
    [GRAPHIC] [TIFF OMITTED] T7844A.102
    
    [GRAPHIC] [TIFF OMITTED] T7844A.103
    
    [GRAPHIC] [TIFF OMITTED] T7844A.104
    
    [GRAPHIC] [TIFF OMITTED] T7844A.105
    
    [GRAPHIC] [TIFF OMITTED] T7844A.106
    
    [GRAPHIC] [TIFF OMITTED] T7844A.107
    
    [GRAPHIC] [TIFF OMITTED] T7844A.108
    
    [GRAPHIC] [TIFF OMITTED] T7844A.109
    
    [GRAPHIC] [TIFF OMITTED] T7844A.110
    
    [GRAPHIC] [TIFF OMITTED] T7844A.111
    
    [GRAPHIC] [TIFF OMITTED] T7844A.112
    
    [GRAPHIC] [TIFF OMITTED] T7844A.113
    
    [GRAPHIC] [TIFF OMITTED] T7844A.114
    
    [GRAPHIC] [TIFF OMITTED] T7844A.115
    
    [GRAPHIC] [TIFF OMITTED] T7844A.116
    
    [GRAPHIC] [TIFF OMITTED] T7844A.117
    
    [GRAPHIC] [TIFF OMITTED] T7844A.118
    
    [GRAPHIC] [TIFF OMITTED] T7844A.119
    
    [GRAPHIC] [TIFF OMITTED] T7844A.120
    
    [GRAPHIC] [TIFF OMITTED] T7844A.121
    
    [GRAPHIC] [TIFF OMITTED] T7844A.122
    
    [GRAPHIC] [TIFF OMITTED] T7844A.123
    
    [GRAPHIC] [TIFF OMITTED] T7844A.124
    
    [GRAPHIC] [TIFF OMITTED] T7844A.125
    
    [GRAPHIC] [TIFF OMITTED] T7844A.126
    
    [GRAPHIC] [TIFF OMITTED] T7844A.127
    
    [GRAPHIC] [TIFF OMITTED] T7844A.128
    
    [GRAPHIC] [TIFF OMITTED] T7844A.129
    
    [GRAPHIC] [TIFF OMITTED] T7844A.130
    
    [GRAPHIC] [TIFF OMITTED] T7844A.131
    
    [GRAPHIC] [TIFF OMITTED] T7844A.132
    
    [GRAPHIC] [TIFF OMITTED] T7844A.133
    
    [GRAPHIC] [TIFF OMITTED] T7844A.134
    
    The Chairman. I thank the gentleman.
    Ms. Theresa Grafenstine.

                STATEMENT OF THERESA GRAFENSTINE

    Ms. Grafenstine. Thank you. Good morning, Chairman Brady, 
Ranking Member Lungren, and members of the committee. I am both 
pleased and honored to appear before you today in my capacity 
as the acting House inspector general.
    I submitted my written comments for the record, so I will 
only take a few minutes to highlight some of the key points on 
the topic of governance and the administrative and service 
functions of the House and how the House Office of the 
Inspector General, or OIG, is an organization dedicated to this 
purpose.
    The OIG's mission is to provide value-added recommendations 
for improving the performance, accountability, and integrity of 
House administrative operations. We do this by performing 
independent audit, advisory, and investigative services in a 
nonpartisan manner. In carrying out this mission, the House OIG 
has established a track record of providing quality products to 
assist the Committee on House Administration in its oversight 
and governance responsibilities.
    Oversight serves a number of overlapping objectives and 
purposes. It helps improve the efficiency and effectiveness of 
operations, and it helps provide a means to evaluate 
performance. It helps prevent fraud, waste, and abuse. It helps 
ensure that entities are operating in compliance with 
organizational policies and best business practices. And it can 
be a catalyst for positive change.
    As such, the OIG has an important role in the general 
oversight of the administrative activities of the House. Over 
the past 16 years, the OIG has added value by working closely 
with the Committee on House Administration and the House 
officers to improve the operations of the House. In addition to 
providing traditional audit services, the OIG provides 
proactive analysis and guidance through its management advisory 
services. These advisory services have included work in the 
areas of emerging technology, systems development, business 
process improvement, and risk management.
    Over the years, the Committee on House Administration has 
also asked the OIG to perform various investigative inquiries 
to respond to concerns of issues to the House. Recognizing this 
broader mission, your committee helped facilitate changing 
rules to the House at the beginning of the 111th Congress. 
Changes to House Rule 2 now formally recognize the OIG's 
advisory and investigative services and grant the OIG 
appropriate authority to carry out its mission. It also allows 
the OIG to better implement guidance and standards published in 
the GAO's government auditing standards.
    Additionally, dividing the OIG into two branches, audits 
and advisories, provides the House with unique advantages. 
Audits and investigations help to ensure that administrative 
operations that are already in place operate in compliance with 
established rules and regulations. This supports the overall 
governance objective by ensuring that processes are working as 
intended. Advisories, on the other hand, look at processes that 
are ongoing; as decisions are being made. This helps to ensure 
that things like security, internal controls, and risks are 
considered upfront; before systems are put into place or as 
administrative policies are being considered.
    Whether audit, advisory, or investigation, we view it as 
our mandate to perform our reviews in such a way that they 
truly add value to our customers in the House. We focus on 
finding the cause of problems and working with the House 
officers to develop solutions that make sense. We do not 
perform our work in isolation. Instead, most of our work is 
collaborative, where we leverage the expertise of the House 
staff we are auditing to help ensure the recommended actions 
will achieve the desired results.
    We also consider it noteworthy that many of our reviews 
were initiated at the request of our customers. You will rarely 
see such requests in other OIGs. And, in my opinion, the fact 
that our auditees come to us and ask for our assistance or to 
participate in their projects is the greatest measure of the 
value we are adding to the House.
    So far, during the 111th Congress, the OIG has issued 27 
audit and advisory reports. The OIG's objective, value-added 
reviews have helped managers to significantly improve House 
financial management, House administrative processes, House 
workplace safety and security, and the security of House IT 
infrastructure and data.
    In addition, through the use of our Lean Six Sigma advisory 
services, the OIG has provided formal training to over 100 
legislative branch employees. This training helps to create a 
sense of continuous improvement. It creates an environment 
where House employees are aware of process and inefficiencies, 
and it arms them with the ability to fix them on their own.
    Currently, the OIG has 20 ongoing audits and advisories in 
various stages of completion. In addition, the OIG has made 
significant progress in streamlining its own processes and 
procedures to make its operations even more productive and 
efficient as it strives to be an example of high standards and 
cost-effectiveness. I believe that the OIG's efforts in all of 
these areas help contribute to the governance of House 
administrative processes.
    Chairman Brady, Ranking Member Lungren, and members of the 
committee, I want to thank you for the opportunity to appear 
before you today. Please be assured that we will continue to 
focus on issues of strategic importance to the House and its 
ability to efficiently and effectively conduct its operations 
safely and securely.
    At this time, I would be happy to answer any questions you 
may have.
    [The statement of Ms. Grafenstine follows:]

    [GRAPHIC] [TIFF OMITTED] T7844A.135
    
    [GRAPHIC] [TIFF OMITTED] T7844A.136
    
    [GRAPHIC] [TIFF OMITTED] T7844A.137
    
    [GRAPHIC] [TIFF OMITTED] T7844A.138
    
    [GRAPHIC] [TIFF OMITTED] T7844A.139
    
    [GRAPHIC] [TIFF OMITTED] T7844A.140
    
    The Chairman. Thank you.
    Without objection, following the hearing, the record will 
remain open for 10 days so that Members may submit additional 
questions in writing to the witnesses appearing before us 
today, and hopefully we will receive your responses.
    I have just a few questions real quickly.
    To the Honorable Lorraine Miller, how much does it cost--
and I don't expect you to be able to answer this, but what does 
it cost to keep the House open per hour?
    Well, I am around, you are around. You can tell me later. I 
was just curious what it costs with all the--I know that the 
building is always secured somewhat, but there must be many 
more people on staff--the elevator operators, the Sergeant at 
Arms, yourself, the clerks, you know, everything that has to 
happen. I am sure that the offices are--there are more detailed 
offices when we are in session, when that light is lit, when 
Lady Liberty is lit.
    I mean----
    Ms. Miller. Mr. Brady, to be perfectly honest with you, I 
don't have a good idea. We could try to find out. I know that 
there have been inquiries about the amount, but I can't give 
you a good answer at this time. But I can find out.
    The Chairman. I appreciate that. It was just a curious 
thing. I would like to know what it costs us to work here, you 
know, how much it costs per hour, just so I can--I would just 
like to know. Thank you.
    Wilson. You know I am not going to let that go. We had some 
major activity over the last month or so, you know. Were there 
any incidents--and I want to commend you on how you handled it. 
You know, I do believe that everyone should have an opportunity 
to say nice things or say anything about us. We do work for 
them.
    But, any incidents that, you know, we need to help you be 
able to take care of? I know that there was a lot of activity 
out there. And I do commend you again for the way you handled 
it. Any comments on that? I mean, is there anything we can do 
to be able to help you?
    Mr. Livingood. Well, it was----
    The Chairman. A challenge.
    Mr. Livingood [continuing]. Quite a time, because I think 
that Congress----
    The Chairman. Excuse me. I was a Sergeant at Arms for 11 
years, so I know how hard it is for you to deal with those 
issues when they are dealing with the egos of such as us, you 
know.
    Sorry. Go ahead.
    Mr. Livingood. But I think, during that period, Congress 
was faced with--all of you and the whole House and the Senate--
just an outpouring, I think, of public opinion as the public 
exercised their right to make their opinions known to Congress. 
The crowds that came up here were large and, at times, vocal. 
Nothing new; we have had that many times in the past.
    I think the long lines, a little unusual, materialized at 
every door to the House office buildings--long lines, I mean 
long--because people came from where they were participating in 
their outpour, one way or the other, and went to the House 
buildings. And we had to bring in--or the police manned extra 
magnetometers to try to get them into the building. And they 
were successful. Extra officers were posted throughout the 
building to answer questions and provide directions.
    I think we were somewhat surprised at the size of the crowd 
in comparison to the permits that we had received by the 
Capitol Police. I think there was more crowd size than 
estimated. And then, additionally, other crowds spontaneously 
appeared and converged on the Capitol grounds without permits.
    The Gallery access was open, and we brought in extra police 
there so that we had more space in the Gallery. We opened most 
every sector of the Gallery. And I believe the Capitol Police 
did an excellent job, and I am proud of their performance, as 
always, and their commitment to ensuring a safe environment.
    There were lessons learned. And I think we had three or 
four lessons learned during that period, if I may. And we 
always have lessons learned after every exercise or every 
situation, but that is good. That means that we care, and that 
means we want to change. And no two exercises or events are the 
same, trust me; they are all different.
    I think that we need to be--my office and special events 
people--a little more forward-thinking in dealing with leaders 
of various interest groups and work with them to gauge crowd-
size intentions and more firmly establish ground rules of 
behavior. Based on information gathered from these leaders, 
Capitol Police manpower needs to be more flexible and mobile in 
dealing with changing crowd dynamics.
    And I think one of the important things--and this is what 
we have been working on, the last group that we had here, the 
last large group--is the outreach to the House community should 
be more proactive.
    Mr. Livingood. We continue to work towards improving this 
outreach, and you will see a change in that. I firmly believe 
you can't overcommunicate. People accuse you of 
overcommunicating. To me, in certain ways, there is no such 
thing. The more they know, the better off everybody is. It is 
just a different philosophy, I feel.
    Ms. Miller. May I address that?
    The Chairman. Certainly.
    Ms. Miller. I attended the Secretaries-General of 
Parliaments conference a few weeks ago, and this came up as a 
huge issue. This is not just a phenomenon that we are 
experiencing, but also in Parliaments around the world. I think 
if you notice in the Post today, they talk about a disturbance 
within the Parliament in Kiev.
    So Bill is absolutely right. We have to pay attention to 
this, and we have to plan ahead of the curve, because people 
are being very active and very vocal in their opinions to their 
legislatures.
    Mr. Beard. If I could jump in, too, just some numbers that 
I found interesting. Normally we receive on a daily basis 
approximately 200,000 phone calls. During the one week in 
March, we received 500,000 phone calls a day.
    The Chairman. Did anybody call anybody else but me?
    Mr. Beard. They got me, too.
    The Chairman. I feel like I got all of them.
    Mr. Beard. During one 6-day period during the debates on 
health care, we had 217 million hits on house.gov, which is way 
beyond anything we have ever received before. So it is not only 
a physical presence, but it also is an electronic presence, if 
you will.
    The Chairman. Thank you. I appreciate that.
    Mr. Beard, while you are speaking, through various programs 
with yourself in cooperation with the Architect of the Capitol, 
what are the cost savings that you are incurring for the House?
    Mr. Beard. Well, I just want to add sort of generally, when 
I was here a couple of years ago, we talked about the Green the 
Capitol program and getting the Architect and our office on the 
same page. I think we have done that, and we have done that 
very well. Both the Acting Architect and myself have worked 
hard at that, and it is demonstrated by our issuing a joint 
report a week ago explaining the state of affairs with respect 
to greening the Capitol.
    We now undertake weekly meetings with the Architect's 
Office to make sure we are working in concert with one another 
and not duplicating efforts, and I think we have made 
accomplishments in that regard.
    I think it would be very difficult to calculate benefits 
and costs associated with the greening effort, but I will say 
in the IT area particularly we saved a considerable amount of 
money and reduced our energy needs as a result of new 
technology, consolidation and other activities.
    So, I think that net-net, it has been, I think, a very 
positive thing. The leadership that we have shown nationally 
and internationally, I was just with the Coca Cola Company, who 
is going to be installing new vending machines in the House of 
Representatives which are the latest in technology, and they 
have reduced their carbon emissions by 99 percent in those 
machines and reduced their energy consumption by 15 percent 
over the energy-efficient machines they already have installed 
here in the House.
    So this is something that is happening both at the 
corporate level and also the government levels as well.
    The Chairman. Thank you. I appreciate all of you.
    Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. I 
appreciate this. I wondered before you became chairman and I 
became ranking member what these positions were like, and I 
have finally figured them out. We are the javelin catchers of 
the House of Representatives, because every complaint that a 
Member has comes to us first. So I will pass some of them 
along.
    One of the things I would just like to put on the record is 
something that the Capitol Police Chief has told me on several 
occasions when he was describing the march on Washington that 
took place in September by the Tea Party group. He said it was 
the first march he had ever seen in which the grounds of the 
Capitol were cleaner after the demonstration than before.
    He was out there on the Capitol steps and asked one of the 
members of the Tea Party, who was evidently a marshal cleaning 
up or policing the trash area, he said, why are you doing it? 
And he said, sir, we did not come to our Capitol to trash it.
    I thought that was a great comment. The fact that we have a 
lot of people coming here or calling us is actually a tribute 
to our system, rather than a criticism--not to suggest that any 
of you criticized it, but sometimes the press doesn't fully 
understand, I think, what we are seeing here.
    A couple of things. Mr. Beard, it is kind of difficult 
being a Member of Congress these days in some ways in terms of 
dealing with some of the problems that are out there with the 
economy. When I was going over your, I guess it is semiannual 
report, you included in there a copy of an article that 
appeared in the Washingtonian Magazine which talks about 
something which is great, which is working in the Capitol is 
one of the best places to work. But in there they said this: 
``Of course, solid pay and generous benefits are also draws 
amid the current barrage of bailouts, bankruptcies and 
layoffs.''
    Frankly, that kind of a statement is not very helpful to 
Members of Congress when dealing with their constituency, that 
we are bragging about the fact that we pay big time here amid 
the barrage of bailouts, bankruptcies and layoffs. I would just 
hope that whoever you've got putting that stuff out would pay 
attention to that.
    The other thing is you mentioned that we had so many calls 
coming in. I was here in the Reagan years when our system 
crashed at that time, when Ronald Reagan would say, let them 
know how you feel, and they did.
    As a matter of fact, I recall a time when I was waiting to 
go to the floor of the House, I was waiting for the elevators, 
and someone you folks may have heard of, Charlie Wilson, was 
standing next to me. Charlie Wilson said--and I will clean up 
his language a little bit--Charlie Wilson said, that President 
of yours, if he comes out against making love, I will have to 
vote for him. For Charlie Wilson, that would have been the 
greatest sacrifice in history. But the point was our telephone 
system collapsed, the mail did.
    When we had it this time in terms of all of our systems 
being overloaded, your press guy says to the press about the 
inability of constituents to get through on the phone, well, 
for everyone who doesn't get through, they will just say to 
themselves, I will try again tomorrow.
    I will tell you, if a member of my staff said that to a 
constituent who said they couldn't get through, I would be 
pretty upset. I am concerned that that reflects a lack of a 
sense of urgency about what we are about, and that kind of a 
comment either was totally off base, or it reflects an attitude 
that I find very difficult to accept, because then I have to 
go, or every other Member has to go, and distance themselves 
from the comment from your chief press person about how this 
place operates.
    Were you aware of that statement?
    Mr. Beard. No. But I think that the important thing to 
remember about the phone system is the phone system didn't melt 
or not work. It worked, but 20 to 30 percent of the time, 
people that were phoning were getting busy signals. But when 
they phoned back, whether that was 5 minutes later or an hour 
later or the next day, they did get through eventually.
    It is not only a limited capacity on the part of the 
physical infrastructure of the phone system, but it also is the 
inability in Member offices to have enough people to answer the 
phone. Like you, we had during that period hundreds of phone 
calls into our office simply because they couldn't get into 
Member offices or couldn't get the phone answered.
    So I think it has caused us to do an after-action report of 
that period of time to see what it is we need, and we need to 
explore things like voiceover IP as a possible alternative when 
we have large volumes of calls into the House.
    Mr. Lungren. That would be helpful. It just doesn't help 
when someone cavalierly says, well, if they don't get through, 
they will call again tomorrow. I just want you to know that. If 
my staff member said that, I would be very upset.
    Again, I say I am a javelin catcher; I receive complaints 
of every type. Somebody complained the other day that we have a 
sign on the east steps of the Capitol going up saying ``Members 
Only,'' and it is corroded. So I have to deal with that as well 
as people talking about whether they are getting reimbursed for 
certain payments.
    But one of the groups that I pay attention to is the House 
Chiefs of Staff Association, and they sent a letter to you 
April 5th, which they copied to me and to the chairman, raising 
several concerns about the operation of the CAO's Office and 
the relationship with Member office operations as reflected in 
their membership, that is the Chiefs of Staff Association.
    Let me just ask you, have you received complaints prior to 
this letter?
    Mr. Beard. I am sorry, from whom? Anybody?
    Mr. Lungren. From the organization.
    Mr. Beard. From which organization, the Chiefs of Staff?
    Mr. Lungren. That is the one I am talking about.
    Mr. Beard. Yes, I got their letter, and they said that 
they--I think there was an offhand reference in there that they 
were having difficulty meeting with me. I phoned them 
repeatedly and told them I am ready to meet with them at any 
time. But, yes, they wrote me about a year ago, I think, and 
they wanted to talk about financial counseling and 
reimbursement. And I am more than willing to meet with them at 
any point. I think I am scheduled at this point to meet with 
them.
    Mr. Lungren. Well, let me ask you, are you engaging with 
them on their proposal on creating a working group with the 
CAO?
    Mr. Beard. Since I haven't met with them, I am not engaged 
with them, but I am more than happy to work with any working 
group. We work with a group of administrators, office 
administrators, and we work with the financial contacts in the 
individual committees who I will be meeting with, and also the 
Chiefs of Staff as well.
    Mr. Lungren. Okay. I guess I don't understand. You have or 
have not met with the Chiefs of Staff Association is my 
question?
    Mr. Beard. I have not met with them, but I have a meeting 
scheduled.
    Mr. Lungren. Well, I hope you would, because I appreciate 
your meeting with members of the committee, but Chiefs of Staff 
represent Members in their personal offices, and I would 
believe that they might have some effective and important 
observations about the inter workings between their offices and 
your office, and I would hope you would be open to that rather 
than being resistant to it.
    Mr. Beard. I am not at all resistant to it. I think it is 
important to point out we have 503 or 504 individual employing 
authorities in the House of Representatives. So, yes, I do have 
to listen to the Chiefs of Staff organization, but also we have 
committees, and then we also have all the officers. And in our 
financial counseling area, it is important for us to maintain a 
certain integrity and internal controls that are important to 
the IG as well as the auditors here.
    Oftentimes we are asked to do things that we simply cannot 
do or aren't in the best interests--aren't the best business 
solution to a particular item. This is a unique environment 
where our customers are very close to us, so we have to be 
careful with that.
    Mr. Lungren. Okay. It sounds like you are rendering a 
criticism on the Chiefs of Staff.
    Mr. Beard. No.
    Mr. Lungren. And, frankly, if that is your view, that is 
your view. I would not only resist that, I would take umbrage 
at that. To suggest that somehow you can't listen to the Chiefs 
of Staff because they are asking you to do something illegal or 
improper or in some way wrong, frankly, I just don't accept 
that at all.
    According to the Chiefs of Staffs Association, they have 
asked you on numerous occasions to meet, and you failed to meet 
with them. Now you tell me you are going to, but then you turn 
around my question and suggest they are asking you to do 
something they are not supposed to do. There is no suggestion 
of that in my question at all.
    Frankly, the last time I looked, Members of Congress are 
elected. We make up this House of Representatives, and I 
thought the CAO was to work for the Members to make their job 
better, to serve their constituents. That is what I was elected 
to do. That is what I look to your office to do.
    Frankly, I don't look to your office to tell me that you 
won't even meet with me, and I am talking about that generally, 
because somehow you are afraid that I am going to ask you to do 
something you shouldn't do. That is not the suggestion in this 
letter at all. There is nothing in this letter that suggests 
that. And to suggest that somehow the IG sitting next to you is 
the person making it difficult for you to respond affirmatively 
to a request by those of us--the Chiefs of Staff are the people 
that we have determined are our top people running our staffs.
    I am just sorry, but, frankly, I find your response not 
only odd, I find it insulting to Members and to their staffs. 
And I would hope you would be a little more willing to work 
with Members and not then question what it is they are asking 
you to do before you even meet with them, and to put that on 
the record here.
    I am finished, Mr. Chairman.
    The Chairman. I thank the gentleman.

    [GRAPHIC] [TIFF OMITTED] T7844A.141
    
    [GRAPHIC] [TIFF OMITTED] T7844A.142
    
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. I do have a couple of 
questions.
    Obviously we are all here and will look at the transcript, 
but I don't think Mr. Beard was suggesting that the Chiefs of 
Staff had asked anything improper. I think he is just noting we 
are all elected, but if we ask for something that is not 
permitted within the rules, we can't do that, and we all know 
that. So that is how misunderstandings, I think, get started.
    I want to talk about the House Child Care Center, if I 
could, Mr. Beard. We have, I think, a waiting list. I saw an 
article in one of the local Hill rags recently talking about 
the inability, actually the glass ceiling for women in staff 
positions. A big issue about that is child care.
    So I would like to know how many are currently enrolled, if 
you know that; how long is the waiting list; obviously there is 
a need for additional capacity. How would we increase the 
capacity; what would be the cost implications? Could we recover 
it through fees or even through grants?
    I know recently someone not on my staff who was expecting. 
They put their name on the list as soon as they found out they 
were expecting, and they still hadn't made it into the center 
by the time they gave birth. So can you respond to that?
    Mr. Beard. The capacity of the child care center in the 
Ford Building is 70 children.
    Ms. Lofgren. Seven-zero?
    Mr. Beard. Seven-zero. But it is important to recognize--
and then we have to staff that operation. The demand--the 
largest demand that we have has been for the youngsters under 2 
years old. We have currently 170 people on our waiting list, 
170 families I should say, because in some cases they may have 
a request for more than one child to participate.
    Ms. Lofgren. So about three times the number--assuming you 
have families with more than one child, three times the number 
of people on the waiting list as we have in the facility.
    Mr. Beard. Yes. And in 2007, we did a very thorough study 
of the backlog, the waiting list. I think what is important to 
observe about the waiting list is you can't buy yourself out of 
the waiting list. It costs in capital costs somewhere between 
$2.7 million and $5 million to build a new daycare center, and 
that doesn't even count being able to staff the center. The 
ratios for kids under 2 is greater than others.
    Ms. Lofgren. I would like to take a look at that study. But 
one of the things I have always done, I have served on a school 
board, I served in local government, and now I have served here 
in the House, and every place I have served, I have opened 
child care centers. In every place I have served, I have been 
told it is too expensive and these very high capital costs, and 
every place I served I found out you could do it for a lot less 
and end up with something that is quite nice.
    So I would like to take a look at that study and follow up 
with you. I know that staffers who have children or are 
expecting are putting their names on waiting lists at the 
Library, at the Senate, everywhere. People are desperate. It 
really has not only an adverse impact, but it means that we 
can't really fully usually take the benefit of female staffers 
as we could, and that hurts the House, and it hurts the 
country.
    I would like to talk a little bit, if I could, about the 
network, House network drives. My staff has told me that there 
have been more network drive disruptions these past few weeks 
than usual, and it has prevented staff from accessing 
constituent mail databases, sometimes for hours at a time.
    Do you know what the sources are of these disruptions, and 
what are you doing to resolve them?
    Mr. Beard. We have two sources of disruption. One has been 
power supply, which is under the jurisdiction of the Architect 
of the Capitol. We have been working with the House 
Superintendent on that. But in our drives in the consolidated 
area, we have encountered a number of problems. We pulled in 
both the companies and our engineers have been working on it to 
identify the problem. We think we have identified the problem, 
and everything is up and running now, and we have recovered any 
data that may have been lost. We have recovered it, so it isn't 
lost. But it is a constant challenge to make sure that we have 
a reliable system and that we don't go down. It is just one of 
the things that we can't do.
    Ms. Lofgren. I would like to follow up with you if I could, 
too, especially from the district office, it is just hellacious 
to get into the system. It is just a waste of time for the 
staff. I find it myself where you can wait an hour to get into 
the system. So I have got my staff trying to do constituent 
services, but it is just really very frustrating. To me, I just 
can't understand why it would be that way, and I think we need 
to fix it.
    If I can just do two more quick questions. First, and again 
to follow up, we do need to scan--Bill, I think this is your 
issue on scanning the BlackBerrys after the overseas trips for 
security purposes. Is that you, Dan?
    Mr. Beard. Yes.
    Ms. Lofgren. That is happening with government CODELs, but 
I don't think it is happening with privately sponsored trips, 
and it needs to. That is ultimately all publicly available, it 
is reported, but it is reported once a year.
    I am wondering if we could do some kind of coordination; 
every single trip has to be approved by the Ethics Committee, 
that maybe we could do some collaboration just for the purpose 
of BlackBerry scanning upon return. I will make sure that the 
Ethics Committee follows through with you, if you are willing 
to do that.
    Finally, Ms. Miller, thanks for HouseLive.Gov. I am just 
wondering, will this be available to the public ultimately to 
view, and when will it be available for viewing in search of 
committee proceedings?
    Ms. Miller. Yes, it is available for the public right now, 
and we have had about 450 folks that are already using the 
system. Now, committees, I am not quite sure. We are working 
with HIR and House Administration to see what we need to do to 
get that.
    Ms. Lofgren. I think that would be very, very helpful, 
because, as we know, much of the work of the House does, in 
fact, go on in its committees. C-SPAN, when it was first 
brought in, played a tremendous service, but I think there is a 
little redundancy now. You can Webcast anything, and they don't 
cover all the hearings. Storage is cheap. There is no reason 
why the public should ever be precluded from watching a 
committee proceeding. We should take that upon ourselves.
    Ms. Miller. But HouseLive is available. Committee staff 
have access to it.
    Ms. Lofgren. I know. But of committee proceedings.
    Ms. Miller. Committee proceedings. That is kind of not my 
bailiwick.
    Ms. Lofgren. Let's talk further about it if we could.
    I thank the chairman.
    The Chairman. Mr. Harper.
    Mr. Harper. Mr. Beard, if I could ask you a couple of 
questions. It is my understanding that when the House entered 
into a contract with Restaurant Associates to provide for food 
services, one of the stipulations you requested after the 
contract was signed was to provide, I guess, greener utensils 
and containers.
    Mr. Beard. Yes.
    Mr. Harper. I know that was agreed to with the provisional 
condition that additional costs would be deducted from the 
commission that they were required to give back to the House 
under the contract. So a couple of questions relating to that.
    First of all, can you tell us approximately how much in 
commissions the House has lost as a result of these deductions? 
And as a follow-up to that, have there been any other 
deductions in vendor contributions to the House revolving fund 
that has resulted in a loss to the House?
    Mr. Beard. I think the answer to the second question is no, 
but I don't have the cost figure in front of me right now. The 
question was how can we initiate and bring in new compostable 
containers? That wasn't part of the contract that was 
negotiated with Restaurant Associates prior to my arriving, and 
I felt if we were going to demonstrate leadership, it made 
sense for us to provide compostable materials, and that we had 
sufficient potential revenues and commissions to be able to 
afford that.
    Mr. Harper. Will you provide us with those figures at your 
convenience, sir?
    Mr. Beard. Sure. Yes.
    Mr. Harper. Another thing that I was looking at was the 
statement of disbursements that had been placed on line, both 
the on-line and printed versions. They displayed to me a less 
complete disclosure of those public expenditures.
    For example, details concerning office equipment purchases 
had been scrubbed to make the SOD less transparent. I wondered, 
was there any directive on that or instructions given to change 
that in what appears to diminish the transparency of those 
reports?
    Mr. Beard. No, there weren't any instructions. I think when 
we decided to put it up on line and make it publicly available, 
we decided to use the codes that are used by OMB to make sure 
that there was some consistency and clarity with the executive 
branch. So we did change it. There were some changes in the 
descriptions of some of the equipment from what we used before, 
which was published in a three-volume set, but they are not 
inconsistent with what is used in the Federal Government.
    Mr. Harper. Why were those changes made in the 
descriptions?
    Mr. Beard. Just to make sure they are accurate, to make 
sure that they--we can go into a great deal of detail on every 
entry if we want, but we have got 40,000 or 60,000 lines of 
code that we are trying to handle and put up on line, and we 
decided to just use the standardized codes to be able to 
identify the expenditures. It makes it easier for us.
    Mr. Harper. So those changes that were made were done 
before we went on line with the reports; is that correct?
    Mr. Beard. They were made at the time we went on line. As a 
result of going on line, we decided to change the codes we used 
in some of the areas.
    Mr. Harper. But the codes were changed before the first one 
was posted on line?
    Mr. Beard. Yes.
    Mr. Harper. This may be a question for the IG office, if I 
could. I do understand that the House has made these 
concessions for the greening requirements, and that these 
payments are made to the contractor prior to the contractor 
submitting the required revenues into the House restaurant 
revolving fund.
    Because the payments from RA are made through off-the-book 
transactions, it sort of appears that this kind of skirts the 
typical requirements for review and approval of those revolving 
fund expenses by this committee and Appropriations.
    So, why were the transaction processes structured in this 
way? And I would like for IG to comment as to whether such a 
system is appropriate, or whether it lacks transparency, or 
this lack of transparency leads to perhaps some type of 
accountability and potential issues?
    Ms. Grafenstine. Mr. Harper, I am not familiar specifically 
with those transactions; however, we did do a study on that 
compostable program and were able to break down a lot of the 
costs associated with that. I would be happy to be able to 
provide you with that type of information after the hearing, 
but I don't have the numbers available to be able to give you 
something that is accurate.
    Mr. Harper. If you could take a look at that, I would 
certainly appreciate that.
    Ms. Grafenstine. I certainly will.
    Mr. Harper. That will be great.
    Mr. Beard, one last question that I had regarding things 
that you might help us with. I know that recently you submitted 
revised procurement guidelines to the committee. In the 
proposed revisions you sought to increase the threshold for 
contracts needing committee approval by 100 percent, when 
inflation only justified a 40 percent increase.
    I am wondering if you could maybe explain that discrepancy?
    Mr. Beard. Well, I think for us it was just how many 
contract agreements, procurement actions do we send over to the 
committee. The large procurement actions, for $500,000 and 
above, it is very important to have committee input and for the 
committee to play a role in that process.
    The limit that we were operating under, which I think was 
$250,000, was a limit that was placed over a decade ago, and 
our feeling was through our procurement office that we ought to 
raise that to a higher level. We had suggested that level 
because it was--if you look at all the contracts that we have, 
there was sort of a logical break in there. But in working with 
the committee staff, they decided that a lower limit was 
needed, and that is fine with us as well.
    So, there has to be some break in there at some point, and 
it is just a question of where you draw the line.
    Mr. Harper. Do you feel that that has a positive or 
negative impact on accountability and transparency?
    Mr. Beard. Well, every expenditure, every contract we have 
is a competitive contract, and it also is publicly divulged. So 
all of our procurement processes is a very transparent process. 
But, no, I don't think that--it really is a question of how 
much work the committee staff wants to do and be involved in as 
we go forward with these contracts.
    Mr. Harper. I know, Mr. Livingood and Ms. Miller, you are 
upset I don't have any questions for you, but we do thank you 
for your service.
    Thank you.
    The Chairman. I thank the gentleman.
    Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman. I thank 
you all for being here and for your service. I want to probably 
direct most of the questions to Mr. Beard.
    I know you have been working hard on the energy efficiency 
issues. We have been involved in that with you as well. We 
appreciate your responsiveness on that and just your efficiency 
in general. But I had a few questions.
    I just want to start with the payroll system, because we 
have had a number of problems in the office. One of the 
explanations that I have heard is there is just a lot of 
turnover down there.
    I am wondering, what is the problem? Is that true? Is there 
just a lot of turnover in terms of employees? Why are people 
having so many difficulties in this area?
    Mr. Beard. Well, I think there are a number of different 
reasons. One is that as a good business practice, and it is 
required, we do have to change the financial counselors on a 
regular basis. They have to rotate so that they aren't handling 
just one account all the time.
    We have also had workload balances. The workload has 
spiked, and it spiked in January and February. We handled at 
least twice as many requests for reimbursements than we 
normally have handled because it was the end-of-the-year 
requests that came through.
    We haven't had that great a turnover. What we have had is a 
change in the assignment of individuals, and I think some 
financial counselors are uncomfortable with that. But we had to 
rearrange the financial counselors to handle the workload 
balance and also to make sure that we don't have single points 
of failure. We have to make sure if a financial counselor is 
out, we have somebody to cover that. We are also realigning our 
staff to be able to handle a transition to a new financial 
system on October 1st.
    I think that I would add to that that when this committee 
issued or passed a resolution requiring increased standards for 
reimbursement, we have struggled with instituting those new 
standards, and there has been a learning process for those new 
standards. We now have the turnaround time on vouchers back 
down to the level where we should be. It is approximately 6 
days. But there may be individual vouchers that are longer than 
that.
    Mrs. Davis of California. Well, I appreciate that. I want 
you to stay focused on it, if you can.
    Mr. Beard. Yes, I will.
    Mrs. Davis of California. I am just not sure of the level 
of tolerance and what we should expect. If you can help out 
with that, that is fine. But some of the glitches that we have 
seen just don't seem appropriate at all. So I want to express 
that.
    On the technology side, again, I appreciate the move 
towards much more efficient technology. We are enjoying some 
more technology in the Armed Services Committee, and that is 
great. It has been very helpful.
    One of the concerns that I think we all sort of scratch our 
head and wonder, what about Wi-Fi really throughout the 
building? You say in your statement you are looking at about 3 
years to have it campuswide. It seems like a long time, since 
Starbucks, McDonald's, everybody else has been able to 
accommodate that. What should we expect?
    Mr. Beard. I don't think it is going to take that. It is 3 
years to build out the 700 points in our Wi-Fi system that we 
want to have. We now have it available in the Longworth 
cafeteria and the Rayburn cafeteria, and we are just bringing 
those up on a regular basis.
    I think the big challenge for us is to have a Wi-Fi system 
that is safe and secure. We had to work with various other 
Federal agencies to make sure that we had a safe system, and 
that we weren't jeopardizing the IT security of our overall 
system.
    Wireless is the direction that the industry is moving, and 
it is a direction that we are going to have to go as well, but 
it presents certain challenges for us.
    Ms. Davis of California. Three years, maybe not. But what 
is realistic?
    Mr. Beard. I would have to get back with you with an 
estimate. But certainly it will be less than 2 years, I will 
tell you that.
    Mrs. Davis of California. Several other questions have been 
raised about the difficulty in accessing, whether it is e-mail 
or some of the accounts. The space that staffers have on e-mail 
seems limited compared to what they can expect in other arenas. 
Again, can we increase that space? Is that something that we 
are going to be seeing?
    Mr. Beard. Yes, we can. I think you are talking about the 
space of the individual mailbox. The system we have been using 
in the past has had limited space, but we are moving towards--
we now have increased capability, and we are going to begin 
rolling that out in the next month or two to increase the size 
of the individual mailboxes, so you don't have to keep 
deleting, which is a challenge, on a regular basis.
    Mrs. Davis of California. That would be helpful.
    Finally, if I may, Mr. Chairman, just briefly, I know that 
there has been an annual compensation study. You have 
reinstated that. That is very helpful. But I really do need a 
commitment that you are going to commit to doing that study 
again next year, and also that there will be enough staff 
involvement and input where people desire to do that in terms 
of the kind of questions that are asked, because I think 
sometimes we miss the boat on the questions that we ask.
    Mr. Beard. We will do it next year, and we will improve the 
timing. I want to have that report done so that it comes out in 
September or October so it is in time for the Members to make 
decisions with respect to year-end bonuses or the salary levels 
that they set for their employees, particularly new Members, 
because I think that study is important to new Members. They 
are able to see what salary levels they ought to be providing.
    Mrs. Davis of California. Thank you.
    And the other issue, of course, is the diversity of the 
staff, and particularly some of the higher-paid staff, which I 
think we all need to work on. So we want to look at that.
    Just finally is access. Getting up to the Rayburn room, we 
have visitors that come in or people we need to meet with, and 
I don't know what it is right now, but they are just having a 
tough time getting access to get through the tunnel and up to 
the Rayburn room. So if you can just take a look at that and 
see if there is something going on. I am always amazed, because 
I wait, and that is the hitch. People are walking fast, but 
they just can't get there.
    Thank you very much. Continuing to get input for all of us 
is helpful.
    Thank you.
    The Chairman. I thank the gentlelady.
    I thank our panel. As Mr. Lungren says, we do catch the 
javelin, and I do come to every one of you with some crazy 
requests. I appreciate that you always have a smile and handle 
them with courtesy and professionalism. We do appreciate that. 
I thank you.
    I thank our members for your participation.
    This hearing is adjourned.
    [Whereupon, at 12:45 p.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T7844A.143
    
    [GRAPHIC] [TIFF OMITTED] T7844A.144
    
    [GRAPHIC] [TIFF OMITTED] T7844A.145
    
    [GRAPHIC] [TIFF OMITTED] T7844A.146
    
    [GRAPHIC] [TIFF OMITTED] T7844A.147
    
    [GRAPHIC] [TIFF OMITTED] T7844A.148
    
    [GRAPHIC] [TIFF OMITTED] T7844A.149
    
    [GRAPHIC] [TIFF OMITTED] T7844A.150
    
    [GRAPHIC] [TIFF OMITTED] T7844A.151
    
    [GRAPHIC] [TIFF OMITTED] T7844A.152
    
    [GRAPHIC] [TIFF OMITTED] T7844A.153
    
    [GRAPHIC] [TIFF OMITTED] T7844A.154
    
    [GRAPHIC] [TIFF OMITTED] T7844A.155
    
    [GRAPHIC] [TIFF OMITTED] T7844A.156
    
    [GRAPHIC] [TIFF OMITTED] T7844A.157
    
    [GRAPHIC] [TIFF OMITTED] T7844A.158
    
    [GRAPHIC] [TIFF OMITTED] T7844A.159
    
    [GRAPHIC] [TIFF OMITTED] T7844A.160
    
    [GRAPHIC] [TIFF OMITTED] T7844A.161
    
    [GRAPHIC] [TIFF OMITTED] T7844A.162
    
    [GRAPHIC] [TIFF OMITTED] T7844A.163
    
    [GRAPHIC] [TIFF OMITTED] T7844A.164
    
    [GRAPHIC] [TIFF OMITTED] T7844A.165
    
    [GRAPHIC] [TIFF OMITTED] T7844A.166
    
    [GRAPHIC] [TIFF OMITTED] T7844A.167
    
    [GRAPHIC] [TIFF OMITTED] T7844A.168
    
    [GRAPHIC] [TIFF OMITTED] T7844A.169
    
    [GRAPHIC] [TIFF OMITTED] T7844A.170
    
    [GRAPHIC] [TIFF OMITTED] T7844A.171
    
    [GRAPHIC] [TIFF OMITTED] T7844A.172
    
    [GRAPHIC] [TIFF OMITTED] T7844A.173
    
    [GRAPHIC] [TIFF OMITTED] T7844A.174
    
    [GRAPHIC] [TIFF OMITTED] T7844A.175
    
    [GRAPHIC] [TIFF OMITTED] T7844A.176
    
    [GRAPHIC] [TIFF OMITTED] T7844A.177
    
    [GRAPHIC] [TIFF OMITTED] T7844A.178
    
    [GRAPHIC] [TIFF OMITTED] T7844A.179
    
    [GRAPHIC] [TIFF OMITTED] T7844A.180
    
    [GRAPHIC] [TIFF OMITTED] T7844A.181
    
    [GRAPHIC] [TIFF OMITTED] T7844A.182
    
    [GRAPHIC] [TIFF OMITTED] T7844A.183
    
    [GRAPHIC] [TIFF OMITTED] T7844A.184
    

</pre></body></html>
